      United States Department of Agriculture




Office of Inspector General
U.S. Department of Agriculture
Improper Payments Elimination
and Recovery Act of 2010 Review
for Fiscal Year 2013




                                       50024-0005-11
                                       April 2014
                                        Improper Payments Elimination and Recovery Act of
                                           2010 Compliance Review for Fiscal Year 2013

                                                       Audit Report 50024-0005-11

What Were OIG’s
Objectives

We performed a required
review of USDA’s fiscal year
(FY) 2013 Agency Financial
Report (AFR) and
accompanying information to          OIG reviewed USDA’s compliance with the
determine whether the agency         Improper Payments Information Act
was compliant with the
Improper Payments
Information Act of 2002, as          What OIG Found
amended in 2010.
                                     The Office of Inspector General (OIG) found that the Department of
What OIG Reviewed                    Agriculture (USDA) did not comply with the Improper Payment
                                     Information Act (IPIA), as amended, for a third consecutive year.
To assess USDA’s compliance          Although USDA made progress towards improving its processes to
with the law, OIG reviewed           move towards compliance, the Department was not compliant with
IPIA, as amended by the              three of the seven IPIA requirements. Specifically, for its high risk
Improper Payments                    programs, USDA and its component agencies did not always report
Elimination and Recovery Act         comprehensive estimates, report error rates below 10 percent, or meet
of 2010, related information in      annual reduction targets. This occurred because some of USDA’s
the FY 2013 AFR, and                 actions were not effective or completed to achieve compliance. These
supporting documentation.            noncompliances continue to illustrate the risks of improper payments
We also interviewed the              affecting taxpayers, as USDA could have avoided approximately
Office of the Chief Financial        $416 million in improper payments by meeting reduction targets. As
Officer and component agency         required, OIG must report to Congress that USDA did not comply
officials responsible for            with IPIA. For those programs that did not comply with IPIA, USDA
administering the 16 programs        must implement several actions, including submitting proposals to
and activities susceptible to        Congress.
significant improper
payments. For FY 2013,               Because the Department has not yet fully implemented corrective
USDA reported these                  actions, some of USDA’s reported actions to prevent and reduce
programs accounted for an            improper payments do not reflect its actual progress. The Department
estimated $6.2 billion in            must improve its reporting accuracy, as in at least one case, improper
improper payments.                   payments that an agency recovered were not reported correctly.

What OIG Recommends                  USDA officials generally concurred with our findings and
                                     recommendations. We received the Office of the Chief Financial
USDA must take steps to              Officer’s written response and accept management decisions for the
ensure its actions to report and     report’s four recommendations.
reduce improper payments
meet IPIA requirements, and
accurately and completely
reflect USDA’s progress.
text text text text text text text
text text text text text text text
text text text text text text text
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250


DATE:          April 15, 2014

AUDIT
NUMBER:        50024-0005-11

TO:            Jon Holladay                                 Juan M. Garcia
               Deputy Chief Financial Officer               Administrator
               Office of the Chief Financial Officer        Farm Service Agency
               ATTN: Kathy Donaldson                        ATTN: Philip Sharp

               Doug O'Brien                                 Audrey Rowe
               Deputy Under Secretary                       Administrator
               Rural Development                            Food and Nutrition Service
               ATTN: John Dunsmuir                          ATTN: Mark Porter

               Thomas Tidwell                               Brandon Willis
               Chief                                        Administrator
               Forest Service                               Risk Management Agency
               ATTN: Thelma Strong                          ATTN: Kent Lanclos

               Jason Weller
               Chief
               Natural Resources Conservation Service
               ATTN: Leon Brooks

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       U.S. Department of Agriculture Improper Payments Elimination and Recovery
               Act of 2010 Compliance Review for Fiscal Year 2013


This report presents the results of the subject audit. We determined that the U.S. Department of
Agriculture (USDA) did not comply with the Improper Payments Information Act, as amended,
for a third consecutive year. The Office of the Chief Financial Officer’s (OCFO) written
response to the draft report, dated April 14, 2014, is included in its entirety at the end of the
report. Excerpts from the response and the Office of Inspector General’s position are
incorporated into the relevant sections of the report. We accept OCFO’s management decisions
for all recommendations.
Jon Holladay, et al.                                                                           2

In accordance with Departmental Regulation 1720-1, final action is required within 1 year of
management decision to prevent being listed in the Department’s annual Agency Financial
Report. Please follow your internal agency procedures in reporting final action.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ............................................................................. 1
Section 1: USDA Did Not Fully Comply With the Improper Payments
Information Act for a Third Consecutive Year................................................ 3
Finding 1: USDA’s Actions to Achieve Full Compliance with IPIA Are Still in
Progress............................................................................................................ 3
         Recommendation 1 ................................................................................. 8
         Recommendation 2 ................................................................................. 8
         Recommendation 3 ................................................................................. 8
Section 2: USDA’s Internal Controls Over Reporting Improper Payments ... 9
Finding 2: Improper Payments Information in the AFR was Inaccurate and
Incomplete........................................................................................................ 9
         Recommendation 4 ............................................................................... 11
Scope and Methodology ................................................................................. 12
Abbreviations................................................................................................. 14
Exhibit A: Summary of IPIA Requirements ................................................. 15
Exhibit B: USDA’s 16 Programs Susceptible to Significant Improper
Payments ........................................................................................................ 16
Agency’s Response ......................................................................................... 17
Background  and Objectives 
Background

The U.S. Department of Agriculture (USDA) delivers approximately $159 billion in public
services annually through more than 300 programs. Of the 300 programs, 16 programs or
activities administered by 7 USDA component agencies are considered vulnerable to significant
improper payments (high-risk programs). USDA estimated in fiscal year (FY) 2013 that,
collectively, these 16 high-risk programs made $6.2 billion in improper payments, a 5.36 percent
error rate. The seven component agencies affected include the Food and Nutrition Service
(FNS), Farm Service Agency (FSA), Commodity Credit Corporation (CCC), Natural Resources
Conservation Service (NRCS), Rural Development, Forest Service (FS), and Risk Management
Agency (RMA).

In general, an improper payment is any payment that should not have been made or that was
made in an incorrect amount. An improper payment also includes any payment made to an
ineligible recipient, a payment for an ineligible good or service, or a payment for goods or
services not received. In addition, a payment is improper if it lacks sufficient documentation.

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) amended the Improper
Payments Information Act of 2002 (IPIA). IPERA requires agencies to conduct risk assessments
to identify high-risk programs, and to measure and report improper payment estimates for those
high-risk programs each year.1 IPERA requires agencies to conduct expanded and more rigorous
recovery audits to identify and recapture overpayments and outlines actions that noncompliant
agencies must implement.

Additionally, IPERA authorizes the Office of Management and Budget (OMB) to issue
additional guidance related to eliminating improper payments, as it is tasked with overseeing the
Governmentwide improper payments reduction effort. IPERA requires the Office of Inspector
General (OIG) to annually determine whether USDA is compliant with IPIA.

Specifically, OIG must determine if USDA met seven requirements. Generally, an IPIA-
compliant agency is one that has:

    ·   Published an Agency Financial Report (AFR) for the most recent FY and posted that
        report and any accompanying OMB required materials on the agency website.
    ·   Conducted a program-specific risk assessment for each program or activity.
    ·   Published improper payment estimates for all programs that risk assessments identified as
        at high-risk for improper payments.
    ·   Published programmatic corrective action plans in the AFR.

1
  IPIA, Public Law 107-300 (November 26, 2002); and IPERA, Public Law 111-204 (July 22, 2010). IPIA
considers a program susceptible to significant improper payments if improper payments exceed $10 million and
account for 2.5 percent of program outlays, or exceed $100 million regardless of percent of program outlays. In
addition, programs that do not meet these thresholds may be required by OMB, on a case-by-case basis, to annually
report improper payment estimates.


                                                                        AUDIT REPORT 50024-0005-11              1
    ·    Reported a gross improper payment rate of less than 10 percent for each high-risk
         program in the AFR.
    ·    Published, and met, annual reduction targets for each measured high-risk program.
    ·    Reported information on its efforts to recapture improper payments.

Exhibit A provides a detailed description of these requirements.

To determine the Department’s compliance, we primarily used data from USDA’s FY 2013
AFR. The AFR was a document published by the Office of the Chief Financial Officer (OCFO)
on December 16, 2013, to report USDA’s financial data, including improper payments
information, as required by OMB. To assist OCFO in meeting reporting requirements, USDA’s
component agencies administering high-risk programs submitted improper payments information
in accordance with OCFO’s guidance. Exhibit B provides a list of USDA’s 16 current high-risk
programs.

Objectives

Our objective was to determine whether USDA was compliant with IPIA, as amended by
IPERA, for FY 2013. In addition, we evaluated USDA’s accuracy and completeness of
reporting, and performance in reducing and recapturing improper payments.




2       AUDIT REPORT 50024-0005-11
Section 1: USDA Did Not Fully Comply With the Improper
Payments Information Act for a Third Consecutive Year
Finding 1: USDA’s Actions to Achieve Full Compliance with IPIA Are Still in
Progress

Of the 16 USDA high-risk programs, we found that 11 did not comply with 1 or more of the
7 requirements. Specifically, USDA did not: (1) publish an improper payment gross estimate
for three programs; (2) publish improper payment rates of less than 10 percent for two programs;
and (3) meet reduction targets for eight programs. In addition, we continued to note that the
sampling methods for one high-risk program were inadequate to estimate its improper payments.
Although the four USDA component agencies responsible for these programs initiated corrective
actions, some actions were not effective or completed to achieve compliance. In some instances,
component agencies took corrective action, but then identified the need for further improvements
to reduce improper payments. These noncompliances continue to illustrate the risks of improper
payments affecting taxpayers, as USDA could have avoided approximately $416 million in
improper payments if these programs met their reduction targets. As required, OIG must report
to Congress that USDA did not comply with IPIA for a third consecutive year.

To comply with IPIA, as amended, agencies must have met seven specific requirements that
included publishing improper payment estimates for all applicable high-risk programs,
publishing gross improper payment rates of less than 10 percent for each program, and meeting
annual reduction targets.2 OMB required all programs and activities susceptible to improper
payments to ensure that their alternative sampling methodologies are approved by OMB prior to
conducting their measurements. Finally, OMB guidance stated that agencies should incorporate
refinements to their improper payment rate methodologies based on recommendations from
agency staff or auditors.3

        USDA Did Not Report Sufficient Improper Payment Estimates for All High-Risk
        Programs

        Of the 16 high-risk programs, we found that 3 programs did not report a gross estimate
        and another program did not have a sufficient sampling methodology to estimate its
        improper payments. These programs were FNS’ Child and Adult Care Food Program
        (CACFP), FSA’s Direct and Counter-Cyclical Payments (DCP) and Loan Deficiency
        Payments (LDP), and RMA’s Federal Crop Insurance Corporation (FCIC).

               CACFP Reported a Partial Improper Payment Estimate

               For CACFP, the Department again reported only a partial estimate of improper
               payments. This occurred because FNS has not yet developed a reliable method to

2
 IPERA, Public Law 111-204 (July 22, 2010).
3
 OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (April 14, 2011).


                                                                  AUDIT REPORT 50024-0005-11          3
                estimate improper payments for the meal claims component of CACFP’s high-risk
                Family Day Care Homes (FDCH) category. An estimate of improper payments
                associated with meal claim reimbursements is one of two components FNS should
                report for FDCH receiving benefits through CACFP.4

                CACFP has three distinct categories: the Child Care Centers, Adult Day Care
                Facilities, and FDCH. FNS identified the approximately 127,977 FDCHs
                receiving benefits through CACFP as potentially high-risk, and OMB approved
                FNS to measure errors in this category of the program using an alternate
                methodology. Since 2006, FNS has conducted feasibility studies to develop a
                reliable method for estimating improper payments of FDCH meal claim
                reimbursements; however, these past studies were not reliable. FNS reported that
                it would cost approximately $20 million to conduct a national study to estimate
                improper payments for CACFP as a whole, including the meal claims component.
                Funding for this national study was denied by Congress in FY 2006.

                Last year, our FY 2012 review reported FNS hired a contractor to assess the
                feasibility of using information from parent recall interviews to validate claims that
                family day care providers submit in order to be reimbursed for meals.5 During our
                third annual review, the results of the parent recall interviews were still pending.
                FNS officials stated that results are expected in June 2014 and would be used to
                determine whether they could develop a reliable sampling method for the FDCH
                meal claim component.

                Eight years have passed without CACFP developing a reliable method to estimate
                improper payments in the high-risk FDCH meal claim component. Although the
                Department discussed plans to publish an estimate by FY 2015, this is the third
                consecutive year CACFP was not compliant with IPIA. As required by the law,
                USDA must submit to Congress proposed statutory changes necessary to bring
                CACFP into compliance.

                DCP and LDP Did Not Report an Improper Payment Estimate

                While CACFP reported a partial estimate, we found that some programs did not
                report any estimate. FSA officials explained that they did not sample because of
                the uncertainty of the Farm Bill reauthorization for DCP and sampling was not cost
                effective for LDP since outlays amounted to $104,040.6 We discovered that FSA
                and OCFO officials discussed not sampling these two programs in FY 2013,


4
  USDA reported an estimate based on the FDCH Tiering Decisions component only. The Tiering Decisions
component relates to validating reimbursable rate determinations for FNS CACFP providers. The Meal Claims
component relates to verifying the meal counts of the CACFP participants.
5
  Audit Report 50024-0004-11, USDA Improper Payments Elimination and Recovery Act of 2010 Compliance
Review for Fiscal Year 2012 (March 14, 2013).
6
  USDA’s AFR stated that DCP authority was to end on September 30, 2012, but the authority was later extended in
FY 2013.


4     AUDIT REPORT 50024-0005-11
                including the actions necessary to request approval from OMB. Although FSA
                and OCFO officials indicated they met with OMB in August 2012 to present
                alternative methodologies to be used beginning with the FY 2012 review cycle and
                obtained verbal approval during this meeting to utilize the alternative
                methodologies, neither FSA nor OCFO officials could provide documentation to
                demonstrate that proper approval was obtained prior to excluding DCP and LDP
                from sampling in FY 2013. Therefore, we concluded that these programs were
                required to publish a gross estimate in accordance with the law.

                USDA must retain sufficient documentation to support USDA’s actions as they
                relate to IPIA. While we are not making specific recommendations for DCP and
                LDP, we recommend that USDA establish a process to document its
                communications with OMB related to its IPIA activities.7

                FCIC Sampling Methods to Estimate Improper Payments were Inadequate

                Finally, not all component agencies based their estimates on adequate information.
                A prior audit reported that RMA’s FCIC alternative sampling methodology to
                estimate improper payments was inadequate because RMA evaluators excluded
                significant payments, such as premium subsidies and indemnities below certain
                thresholds.8 RMA reported that FCIC improper payments were approximately
                $566 million, a 5.23 percent error rate. However, because of RMA’s sampling
                methods, OIG believes that this estimate may have been understated.

                Although OMB approved FCIC’s alternative sampling method in October 2004,
                OMB officials became aware of our concerns and held discussions with the
                Department. In October 2013, OMB rescinded FCIC’s approved alternative
                sampling methods. RMA officials are consulting with OCFO, OMB, and OIG to
                develop a new alternative method. RMA officials expect to use its new sampling
                method to report FCIC’s estimated improper payments for FY 2015 reporting.

                Because RMA, OCFO, and OIG are working to improve FCIC’s sampling
                methods to estimate improper payments, we are not making recommendations
                related to RMA’s sampling methodology in this report.

        USDA Did Not Report Improper Payment Rates of Less Than 10 Percent for All
        Programs

        For 2 of the 16 high-risk programs, USDA reported improper payment estimates of
        greater than 10 percent. Specifically, FNS’ School Breakfast Program (SBP) and

7
  The Agricultural Act of 2014 repealed FSA’s DCP program. Because DCP is no longer authorized to receive
future appropriations, we are not making any recommendations for DCP. In addition, because of the Department’s
planned actions to adequately document its discussions with OMB, we do not make a specific recommendation for
LDP.
8
  Audit Report 05601-11-AT, Risk Management Agency Compliance Activities (September 16, 2009). RMA
excluded indemnities below $2,500 from its sampling plan.


                                                                      AUDIT REPORT 50024-0005-11             5
         National School Lunch Program (NSLP) reported estimated improper payment
         percentages of 25.26 and 15.69, respectively. Last year, our FY 2012 review reported
         that FNS used results from a school year 2005 study to develop its current formulas to
         estimate improper payment rates for SBP and NSLP.9 However, we noted that the study
         was outdated and could not provide confidence levels for future years; therefore, we did
         not believe FNS estimates projected from this study were reliable.

         Furthermore, we reported FNS hired a contractor to conduct a study for school year
         2012.10 FNS officials believed this school year 2012 study would better reflect SBP and
         NSLP improper payment rates and account for corrective actions implemented since the
         last study conducted for school year 2005. During this review, we found that results from
         the updated study for SBP and NSLP were pending.

         FNS expects results by the end of calendar year 2014 to assess FNS’ efforts to comply
         with IPIA. Officials also continued to believe that the new tools and strategies included in
         the Healthy, Hunger-Free Kids Act of 2010 will help reduce errors in SBP and NSLP, but
         believed that it would take time to achieve less than a 10 percent error rate.11

         We determined SBP and NSLP were not compliant with IPIA for a third consecutive
         year. As required by the law, USDA must submit to Congress proposed statutory
         changes necessary to bring these two programs into compliance.

         USDA Did Not Meet Its Annual Reduction Targets

         Half of USDA’s high-risk programs did not meet their reduction target. These eight
         programs missed their reduction target by an average of 1.50 percent, ranging from
         0.03 percent to 6.90 percent. Specifically, FNS’ SBP, NSLP, and Special Supplemental
         Nutrition Program for Women, Infants, and Children (WIC) missed their reduction target
         by 0.90, 0.59, and 0.38 percent, respectively. FNS officials believed that its corrective
         actions noted in its action plan would reduce payment errors in these programs, and
         missing its targets by less than one percent was reasonable and within the confidence
         interval calculated for its sampling methods. FSA’s Miscellaneous Disaster programs,
         Noninsured Assistance Program (NAP), and Conservation Reserve Program (CRP)
         missed their target by 1.68, 0.26, and 0.03 percent, respectively. FSA attributed the
         missed target to administrative and documentation errors, and believed that since the

9
  Audit Report 50024-0004-11, USDA Improper Payments Elimination and Recovery Act of 2010 Compliance
Review for Fiscal Year 2012 (March 14, 2013).
10
   FNS conducted the Access, Participation, Eligibility, and Certification study for its school breakfast and lunch
programs.
11
   Congress enacted the Healthy, Hunger-Free Kids Act of 2010, which includes provisions to improve the
management and integrity of child nutrition programs. For instance, the Act (1) increased the frequency of
administrative oversight reviews of NSLP from once every 5 years to once every 3 years; (2) further strengthened
direct certification for school meals by rewarding States for improvement in direct certification rates; (3) provided
alternatives to paper application systems in low-income areas, i.e. community eligibility to eliminate the collection
and processing of household applications for benefits; and (4) established a second review of applications
requirement for school districts that demonstrate high levels of administrative error associated with certification and
verification.


6     AUDIT REPORT 50024-0005-11
        NAP error rate had declined from FY 2012, it showed the agency has continued to reduce
        its improper payment rate. FSA also noted that new web-based software initiatives were
        expected to help reduce errors.

        RMA’s FCIC missed its target by 1.23 percent. RMA determined one of the companies
        sampled for FY 2013 improper payment reporting had grossly underestimated the
        resources it needed to address the crop insurance claim load for one of its crop years.12
        As a result, RMA found excessive errors in a high percentage of this company’s IPIA
        samples, which caused an increase in FCIC’s overall improper payment estimate.13 RMA
        officials stated that the company was under close monitoring for the 2013 crop year and
        would not be approved for 2014, pending additional corrective actions and
        improvements. In addition, RMA implemented additional controls and requirements to
        ensure new applicants can demonstrate the capacity to address selling and servicing the
        business they write in accordance with their obligations under the Standard Reinsurance
        Agreement.14

        Finally, NRCS’ Farm Security and Rural Investment Act programs (FSRI) missed their
        target by 6.90 percent. NRCS officials stated that they made significant improvements to
        testing, which allowed them to identify more improper payments than in previous years.
        NRCS conducted training, issued national bulletins, updated its policy, and conducted a
        detailed review to ensure this does not happen again. Furthermore, officials stated they
        plan to conduct more in-depth training during FY 2014.

        However, if these programs had met their reduction targets, $416 million in reported
        improper payments could have been avoided. Although these eight high-risk programs
        have initiated actions toward reducing improper payments, USDA must submit plans to
        Congress.

Overall, we found that some of USDA’s high-risk programs did not comply with IPIA either for
1 year, or 3 consecutive years. Although many different actions intended to achieve compliance
with IPIA are in progress, USDA remains noncompliant with IPIA overall. As required by law,
the Department must submit to Congress: (1) a plan describing the actions that the agency will
take to become compliant for those high-risk programs that did not comply with IPIA for 1 year;
and (2) reauthorization proposals or proposed statutory changes necessary to bring those high-
risk programs that did not comply with IPIA for 3 consecutive fiscal years into compliance. In
addition, the Department should establish a process to document its communications related to
its IPIA activities with OMB and other officials responsible for oversight, such as Congress.

12
   RMA uses a 3 year running average to calculate its improper payment rate. The FY 2013 rate was based on the
measurement of 2009, 2010, and 2011 crop year outlays. The identified company underestimated resources for the
2011 crop year.
13
   RMA reported that the company’s error rate was 27.3 percent. This caused a significant increase in the reported
error rate for all of 2011 IPIA samples, which subsequently increased FCIC’s 3 year running average error rate to
the 5.2 percent reported in USDA’s FY 2013 AFR.
14
   The Standard Reinsurance Agreement is a cooperative financial assistance agreement between the FCIC and an
insurance company. It establishes the terms under which FCIC provides reinsurance and subsidies on eligible crop
insurance contracts sold by the insurance company.


                                                                        AUDIT REPORT 50024-0005-11               7
Recommendation 1
Establish a process to document USDA’s communications related to its IPIA activities with
OMB and other officials responsible for oversight, such as Congress.

Agency Response

OCFO will establish a process to document its communications related to its IPIA activities with
OMB and other oversight agencies. OCFO will complete this action by June 2, 2014.

OIG Position

We accept management decision for this recommendation.

Recommendation 2
For programs that did not comply with IPIA for 1 year, submit a plan to the Homeland Security
and Government Affairs Committee of the U.S. Senate and the Committee on Oversight and
Governmental Reform of the U.S. House of Representatives describing the actions that the
agency will take to become compliant.

Agency Response

USDA will submit a plan to the required Congressional committees describing the actions that
the agency will take to become compliant for all programs that did not comply with IPIA for one
year. OCFO will complete this action by July 31, 2014.

OIG Position

We accept management decision for this recommendation.

Recommendation 3
For programs that did not comply with IPIA for 3 consecutive years, submit to Congress
reauthorization proposals or proposed statutory changes necessary to bring these programs into
compliance.

Agency Response

OCFO will issue guidance directing agencies to comply with this requirement. OCFO will
complete this action by June 30, 2014.

OIG Position

We accept management decision for this recommendation.


8    AUDIT REPORT 50024-0005-11
Section 2:  USDA’s  Internal  Controls  Over Reporting  Improper 
Payments 
Finding 2: Improper Payments Information in the AFR was Inaccurate and
Incomplete
For 3 of the 16 high-risk programs, we found areas where some information related to improper
payments reported was not properly supported.15 In addition, we found that USDA’s
information on recoveries outside of recovery auditing was incomplete. Although USDA
implemented a review process to reduce discrepancies between the AFR and supporting
documentation, USDA did not fully implement our audit recommendation from the FY 2012
IPIA compliance report. In addition, certain links in the IPIA sampling process section of the
AFR did not fully describe current sampling methods. Finally, the information was incomplete
on recoveries outside of recovery auditing because one component agency did not provide the
amount of recoveries its programs received, and OCFO erroneously excluded amounts from
another program. As a result, we continue to see that some of USDA’s reported actions to
prevent, detect, reduce, and recover improper payments do not reflect its actual progress.

OMB requires agencies to summarize their progress in preventing, reducing, and recovering
improper payments, and include the detailed portion of the reporting as an appendix to their
AFRs. USDA requires its component agencies to submit improper payment information to
OCFO for inclusion in the AFR. Federal managers are responsible for applying the internal
control standards consistently to meet objectives and assess effectiveness. Finally, OMB
requires Inspectors General to evaluate the accuracy and completeness of agency reporting.16

We reported similar occurrences since we began assessing USDA’s compliance with IPIA in
FY 2011.17 During this third annual review, we found that OCFO required agencies to certify
that the information in USDA’s AFR was reviewed and accurate. This action helped reduce the
number of programs with discrepancies in USDA’s AFR from seven programs reported for
FY 2012 to three programs reported for FY 2013. However, we continued to identify
unsupported statements in USDA’s AFR.

For example:

     ·   The AFR did not report that incorrect acreage was a cause for improper payments in
         FSA’s CRP, though the supporting documentation listed it as a cause.



15
   These three programs included NRCS’ FSRI, FNS’ WIC, and FSA’s CRP.
16
   OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (M-11-16, April 14, 2011); OCFO USDA Fiscal Year 2013 Corrective Action Plan Guidance ; and OMB
Circular A-123, Management’s Responsibility for Internal Control (December 21, 2004).
17
   Audit Report 50024-0001-11, USDA Fiscal Year 2011 Improper Payments Elimination and Recovery Act of 2010
Compliance Review (March 14, 2012). Audit Report 50024-0004-11, USDA 2012 Improper Payments Elimination
and Recovery Act of 2010 Compliance Review for Fiscal Year 2012 (March 14, 2013).


                                                                   AUDIT REPORT 50024-0005-11            9
     ·   The AFR reported inaccurate sampling information for FNS’ WIC, FSA’s CRP, and
         NRCS’ FSRI, although the supporting documentation used to develop USDA’s AFR
         included the correct sampling methods.

Most of the inaccurate sampling information noted above occurred because links in the FY 2013
AFR directed the reader to outdated data and OCFO did not perform an adequate second party
review to ensure updated information was provided. The presentation of the IPIA sampling
section of the AFR should be updated to accurately reflect each program’s method to estimate its
improper payments.

In addition to these discrepancies, we found that the table of overpayments recaptured outside of
recovery auditing that USDA presented in the AFR was inaccurate and incomplete. Each
component agency was required to report the amount of improper payments recovered in its
programs, regardless of whether it administered a high-risk program. However, we found that
OCFO unintentionally omitted $120,000 in recovered amounts reported by Rural Development’s
Direct Single Family Housing Subsidies program, and FNS did not report recovered amounts for
any of its programs. FNS officials responded that they will start reporting the Supplemental
Nutrition Assistance Program (SNAP) recoveries in FY 2014, and will pursue the feasibility of
reporting recoveries for its other programs. Because FNS indicated that it plans to report on
some recoveries starting in FY 2014, we are not making a recommendation to FNS at this time.
In addition, OCFO planned to enhance its current quality review process to reduce the risk of
discrepancies in the IPIA section of the AFR.

Accurate reporting is indispensable to convey to Congress, OMB, and the public USDA’s actual
progress to prevent and recover improper payments. OCFO officials stated that they plan to fully
implement our prior audit recommendation by revising the Department’s current quality review
process. That process includes a documented strategy with well-defined processes that produce
the audit trail needed for verifying the accuracy and completeness of information in the IPIA
section of the required supplemental information in the financial statements. In addition, the
Department should revise the presentation of the “sampling process” section in USDA’s AFR to
ensure that the hyperlinks direct the reader to each program’s most current sampling methods in
accordance with OMB’s guidance.




10       AUDIT REPORT 50024-0005-11
Recommendation 4

Revise the presentation of the “sampling process” section in USDA’s AFR to ensure readers are
able to find each program's most current sampling methods.

Agency Response

OCFO will enhance the agency review and certification process implemented last year by adding
a checklist. OCFO will also develop a second checklist for OCFO staff’s second party review
process. OCFO will complete this action by September 30, 2014.

OIG Position
We accept management decision for this recommendation.




                                                         AUDIT REPORT 50024-0005-11       11
Scope and Methodology 
Our audit focused on improper payments information reported in USDA’s FY 2013 AFR and
additional supporting documentation. We performed our review at OCFO Headquarters in
Washington, D.C. We commenced fieldwork in December 2013 and completed our fieldwork in
March 2014.

We interviewed OCFO officials and USDA component agencies’ management, supervisory, and
staff personnel involved with the 16 programs susceptible to significant improper payments. We
obtained and reviewed all applicable laws, rules, and regulations pertaining to improper
payments, as well as OCFO’s guidance, policies, and procedures. We also reviewed each
program’s plans that described: (1) how sampling was performed; (2) how estimates were
calculated and completed, or (3) proposed corrective actions to reduce improper payments in the
future.

To accomplish our objective, we performed the following audit steps to assess USDA’s
compliance with the seven specific requirements of the IPIA, as amended:

     ·   Published an AFR for the Most Recent Fiscal Year and Posted that Report on the
         Agency Website: We obtained and reviewed the FY 2013 AFR. We also browsed
         USDA’s website to verify that the AFR was posted on the internet.

     ·   Conducted a Program-Specific Risk Assessment for Each Program or Activity: Of
         the 112 risk assessed programs or activities, we non-statistically selected 8 programs and
         activities, based on program outlays, results from prior audits, and the type of risk
         assessment required. Annually, OCFO selects which risk assessment to perform for a
         particular program, based on its stage in the 3-year cycle. The risk assessments range
         from completing a one-page form certifying that events affecting a program have not
         changed, to completing a full risk assessment, including a test of transactions. Our eight
         selected programs captured various types of risk assessments. We reviewed these
         assessments to determine whether the level of risk determination was reasonable.

     ·   Published Improper Payment Estimates for All Programs Identified as High-Risk
         for Improper Payments: We reviewed the improper payment sampling results table in
         Section 3, Other Accompanying Information, of the AFR to identify which programs
         reported “NA” (not available).

     ·   Published Programmatic Corrective Action Plans in the AFR: We reviewed the
         corrective actions and additional information reported in the AFR to determine whether
         USDA complied with OMB guidance. We also reviewed each high-risk program’s
         detailed corrective action plan submitted to OCFO to verify that the information in the
         AFR was accurate and supported.




12       AUDIT REPORT 50024-0005-11
   ·   Published, and Has Met, Annual Reduction Targets for Each High-Risk Program
       Assessed: We reviewed the improper payments reduction outlook table in Section 3 of
       the FY 2013 AFR and compared each program’s reduction target to the actual results
       listed in the improper payment sampling results table in Section 3 of the FY 2013 AFR.

   ·   Reported a Gross Improper Payment Rate of Less Than 10 Percent for Each High-
       Risk Program Published in the AFR: We reviewed the improper payment sampling
       results table in Section 3 of the FY 2013 AFR to identify which programs did not report
       estimates less than 10 percent.

   ·   Reported Information on Its Efforts to Recapture Improper Payments: We
       reviewed the recovery auditing and overpayments recaptured outside of recovery auditing
       information in Section 3 of the FY 2013 AFR to verify that USDA discussed its recovery
       efforts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                           AUDIT REPORT 50024-0005-11       13
Abbreviations 
OIG.........................................Office of Inspector General
USDA .....................................Department of Agriculture
AFR............................ ............Agency Financial Report
CACFP ...................................Child and Adult Care Food Program
CCC .......................................Commodity Credit Corporation
CRP ........................................Conservation Reserve Program
DCP ........................................Direct and Counter-Cyclical Payments
FCIC.......................................Federal Crop Insurance Corporation
FDCH .....................................Family Day Care Homes
FNS ........................................Food and Nutrition Service
FS ...........................................Forest Service
FSA ........................................Farm Service Agency
FSRI .......................................Farm Security and Rural Investment Act Programs
FY...........................................Fiscal Year
IPERA.....................................Improper Payments Elimination and Recovery Act of 2010
IPIA ........................................Improper Payments Information Act of 2002
LDP ........................................Loan Deficiency Payments
MAL .......................................Marketing Assistance Loan Program
MDP .......................................Miscellaneous Disaster Programs
MILC ......................................Milk Income Loss Contract Program
NAP........................................Noninsured Assistance Program
NRCS .....................................Natural Resources Conservation Service
NSLP ......................................National School Lunch Program
OCFO.....................................Office of the Chief Financial Officer
OIG.........................................Office of Inspector General
OMB.......................................Office of Management and Budget
RAP ........................................Rental Assistance Program
RMA.......................................Risk Management Agency
SBP.........................................School Breakfast Program
SNAP .....................................Supplemental Nutrition Assistance Program
USDA .....................................Department of Agriculture
WFSM ....................................Wildland Fire Suppression Management
WIC ........................................Special Supplemental Nutrition Program for Women, Infants, and
                                              Children




14      AUDIT REPORT 50024-0005-11
Exhibit  A:  Summary  of IPIA Requirements   
Exhibit A provides a detailed description of the seven requirements agencies must meet to
comply with Improper Payments Information Act of 2002, as amended.
                                           OIG Fiscal
                                           Year 2013
       Description of IPIA                 Compliance          Reason for OIG Compliance
          Requirements                    Determination.                Decision
                                           Did USDA
                                            Comply?

 Published an Agency Financial                             The Department of Agriculture
 Report (AFR) for the most recent                          (USDA) published and posted an
 fiscal year and posted that report and                    AFR with accompanying materials
                                               YES         on the agency’s website.
 any accompanying Office of
 Management and Budget (OMB)
 required materials on the agency
 website.

                                                           OMB approved USDA’s 3-year risk
 Conducted a program specific risk                         assessment cycle. The Office of the
 assessment for each program or                YES         Chief Financial Officer provided the
 activity.                                                 Office of Inspector General its risk
                                                           assessment guidance inventory of
                                                           programs and activities.
 Published improper payment
 estimates for all high-risk programs          NO          Discussed in Finding 1.
 and activities.
 Published programmatic corrective                         USDA published its corrective action
 action plans in the AFR.                      YES         plans.

Published, and has met, annual
reduction targets for each program
assessed to be at risk and measured            NO
for improper payments.
                                                           Discussed in Finding 1.
 Reported a gross improper payment
 rate of less than 10 percent for each
 program and activity for which an             NO
 improper payment estimate was
 obtained and published in the AFR.

 Reported information on its efforts to                    USDA reported its efforts to recapture
                                               YES
 recapture improper payments.                              improper payments in Section 3 of the
                                                           AFR.

                                                           AUDIT REPORT 50024-0005-11        15
Exhibit  B:  USDA’s 16 Programs Susceptible  to Significant 
Improper  Payments  
Exhibit B provides a list of USDA’s 16 current high-risk programs or program categories.

High-Risk Program                                                                                      USDA Component
                                                                                                           Agency
1.   Supplemental Nutrition Assistance Program (SNAP)
     SNAP provides low income families benefits to purchase food from approved retailers.
2.   National School Lunch Program (NSLP)
     NSLP provides cash subsidies and donated foods from USDA for each meal schools serve.
3.   School Breakfast Program (SBP)
     SBP is a federally assisted meal program where participating school districts receive cash       Food and Nutrition
     subsidies for each meal they serve.
4.   Child and Adult Care Food Program (CACFP)                                                          Service (FNS)
     Provides nutritious meals to participants in day care facilities, such as child care centers,
     day care homes, and adult day care centers.
5.   Special Supplemental Nutrition Program for Women, Infants, and Children (WIC)
     WIC provides supplemental foods and other health services to low-income participating
     women and children up to the age of 5 years.
6.   Federal Crop Insurance Corporation (FCIC) Program Fund                                           Risk Management
     FCIC provides insurance and risk compliance services to American producers.                       Agency (RMA)
7.   Milk Income Loss Contract Program (MILC)
     MILC compensates dairy producers when domestic milk prices fall below a specified level.
8.   Loan Deficiency Payments (LDP)
     LDP is available to eligible participants who do not want to participate in the Marketing
     Assistance Loan Program.
9.   Direct and Counter-Cyclical Payments (DCP)
    DCP provides payments based on yields or market prices to eligible producers on farms.
10. Conservation Reserve Program (CRP)                                                                 Farm Service
    CRP is a voluntary program available to agricultural producers to help them use                   Agency (FSA)/
    environmentally sensitive land for conservation benefits.                                        Commodity Credit
11. Miscellaneous Disaster Programs (MDP)                                                            Corporation (CCC)
    MDP provides assistance through various programs to participants when there are disasters.
12. Noninsured Assistance Program (NAP)
    NAP provides financial assistance to producers of noninsurable crops when low yields, loss
    of inventory, or prevented planting occur due to a natural disaster.
13. Marketing Assistance Loan Program (MAL)
    MAL provides an influx of cash when market prices are low, which allows the producer to
    delay the sale of the commodity until more favorable market conditions emerge.
14. Rental Assistance Program (RAP)
    RAP provides an additional source of support for households with incomes too low to pay          Rural Development
    the basic rent from their own resources.
15. Farm Security and Rural Investment Act programs (FSRI)                                            Natural Resources
    FSRI programs provide products and services that enable people to be good stewards of the        Conservation Service
    Nation’s soil, water, and related natural resources on non -Federal lands.
                                                                                                          (NRCS)
16. Wildland Fire Suppression Management (WFSM)
    WFSM protects life, property, and natural resources on acres of National Forest System and       Forest Service (FS)
    State and private lands through fee or reciprocal protection agreements.




16       AUDIT REPORT 50024-0005-11
Agency’s Response 




                  USDA’S
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 50024-0005-11   17
                                                                          April 14, 2014
United States
Department of
Agriculture

Office of the Chief
Financial Officer

1400 Independence     TO:            Tracy A. LaPoint
Avenue, SW                           Deputy Assistant Inspector General
                                     Office of Inspector General
Washington, D.C.
20250
                      FROM:          Jon M. Holladay -S- Jon M. Holladay
                                     Deputy Chief Financial Officer

                      SUBJECT:       Management Response to Improper Payments Elimination and Recovery Act of
                                     2010 Compliance Review for Fiscal Year 2013, Audit No. 50024-0005-11


                      This responds to your request for management’s response to the Draft audit recommendations
                      in Audit Report No. 50024-0005-11. The management response is attached.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-5539 or have a member of your staff contact Kathy Donaldson at
                      (202) 720-1893.

                      Attachment
                     Improper Payments Elimination and Recovery Act of 2010,
                        Fiscal Year 2013 Report, Audit No. 50024-0005-11

Recommendation 1

Establish a process to document USDA’s communications related to its Improper Payments Information
Act of 2002 (IPIA) activities with OMB, and other officials responsible for oversight, such as Congress.

Management Response: The Office of the Chief Financial Officer (OCFO) will establish a process to
document its communications related to its IPIA activities with OMB and other oversight agencies. All
team members will be directed to send a summary email after verbal communications or to prepare a
memo of conversation. All memos of conversation, emails, letters, memos and scanned hard copy
documents will be placed in a designated folder on the network drive.

Date Corrective Action will be Completed: June 2, 2014

Responsible Organization: Fiscal Policy Division (FPD), OCFO

Recommendation 2

For programs that did not comply with IPIA for 1 year, submit a plan to the Homeland Security and
Government Affairs Committee of the U.S. Senate and the Committee on Oversight and Governmental
Reform of the U.S. House of Representatives describing the actions that the agency will take to become
compliant.

Management Response: USDA will submit a plan to the Homeland Security and Government Affairs
Committee of the U.S. Senate and the Committee on Oversight and Governmental Reform of the U.S.
House of Representatives describing the actions that the agency will take to become compliant for all
programs that did not comply with IPIA for one year.

Date Corrective Action will be Completed: July 31, 2014

Responsible Organization: FPD, OCFO

Recommendation 3

For programs that did not comply with IPIA for three consecutive years, submit to Congress
reauthorization proposals or proposed statutory changes necessary to bring these programs into
compliance.

Management Response: USDA will issue guidance directing agencies to comply with this requirement.

Date Corrective Action will be Completed: June 30, 2014

Responsible Organization: FPD, OCFO
                     Improper Payments Elimination and Recovery Act of 2010,
                        Fiscal Year 2013 Report, Audit No. 50024-0005-11


Recommendation 4

Revise the presentation of the “sampling process” section in USDA’s AFR to ensure the hyperlinks direct
the reader to each program's most current sampling methods.

Management Response: OCFO is considering several options to eliminate errors in the 2014 AFR
sampling process section including eliminating all hyper-links. OCFO will enhance the agency review and
certification process implemented last year by adding a checklist. OCFO will also develop a second
checklist for OCFO staff’s second party review process. Both checklists will include special emphasis on
the sampling process.

Date Corrective Action will be Completed: September 30, 2014

Responsible Organization: FPD, OCFO
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
